Washington, D.C. 20530

September 30, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 2054
Re: Thomas Javion Guerrant v. United States of America,
S.Ct. No. 21-5099
Dear Mr. Harris:
The petition for a writ of certiorari in this case was filed on July 7, 2021. Although the
government waived its right to file a response, the Court has requested that a response be filed.
The government’s response is now due on October 4, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including November 3, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Brian Fletcher
Acting Solicitor General
cc: See Attached Service List

21-5099
GUERRANT, THOMAS JAVION
USA

RANDY V. CARGILL
ASSISTANT FEDERAL PUBLIC DEFENDER
210 FIRST STREET, SW
SUITE 400
ROANOKE, VA 24011
540-777-0880

